                            OFFICE OF THE INSPECTOR GENERAL
                            CORPORATION FOR NATIONAL AND
                                  COMMUNITY SERVICE




                                PRE-AUDIT SURVEY OF THE
                               CALIFORNIA COMMISSION ON
                            IMPROVING LIFE THROUGH SERVICE

                                  OIG Audit Report Number 0 1- 18
                                        October 13,2000




                                             Prepared by:

                                            KPMG LLP
                                        200 1 M Street N. W.
                                       Washington, DC 20036

                               Under CNS OIG MOU # 98-046-5003
                                  With the Department of Labor
                                  DOL Contract # 5-9-G-8-0022
                                       Task # B9GOV203




This report was issued to Corporation management on March 8, 2001. Under the laws and regulations
governing audit follow up, the Corporation must make final management decisions on the report's findings
and recommendations no later than September 4, 2001, and complete its corrective actions by March 8,
2002. Consequently, the reported findings do not necessarily represent the final resolution of the issues
presented.
                                  Office of Inspector General
                        Corporation for National and Community Service                     CORPORATION

                                                                                           FOR NATIONAL
                                  Pre-Audit Survey of the
                   California Commission on Improving Life Through Service
                               OIG Audit Report Number 01-18



Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although the
Corporation began state commission administrative reviews in 1999, the Corporation, historically, has
not carried out a comprehensive, risk-based program for grantee financial and programmatic oversight
and monitoring. It is also unlikely that AmeriCorps programs are subject to compliance testing as part
of state-wide audits under the Single Audit Act due to their size relative to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information on
the state commissions' operations and funding. The surveys are designed to provide a preliminary
assessment of the commissions' pre-award and grant selection procedures, fiscal administration, and
monitoring of subgrantees (including AmeriCorps Member activities and service hour reporting). They
are a tool that allows OIG to plan future audit work related to the state commission's operations. For
each survey, we also issue a report to the state commission and to the Corporation communicating the
results and making recommendations for improvement, as appropriate. Recommendations for future
audit work consider the pre-audit survey results, known audit coverage, and the amount of funding.

We engaged KPMG LLP to perform the pre-audit survey of the California Commissionfor Improving
Life Through Service. Based on the limited procedures performed, KPMG concluded that the
Commission administers an open, competitive process to select national service subgrantees and has
developed various controlpolicies andproceduresforJisca1 administration andsub-recipient oversight.
However, there report includes a number of recommendations to improve the Commission's fiscal
administration and oversight processes. In addition, KPMG recommends that the Office of Inspector
General perform a full scope audit as a follow-up on issues ident@ed by this pre-audit survey and that
the Corporationfollow-up to determine that appropriate corrective actions have been put into place.

CNS OIG reviewed the report and work papers supporting its conclusions. We agree with the findings
and recommendations presented therein.


                                                                                       Inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington, DC 20525
The California Commission's response (Appendix C) takes issue with the findings in the report as well
as the overall conclusion that a full scope audit of all grant years be performed. KPMG provided
comments on the Commission's response (Appendix E) including additional detail and clarification.
KPMG removed one finding from the final report based on the Commission's response related to the
Web Based Reporting System (WBRS). The Corporation's response (Appendix D) argues against the
need for a comprehensive manual of all financial responsibilities; improvements in record retention
practices; and the need for documenting and implementing procedures to follow-up on untimely
Financial Status Reports but states that it will follow-up with the Commission on these recommendations
to ensure that adequate policies are in place and being followed. The Corporation states that it will
follow-up with the Commission to assure that a system is in place to obtain subgrantee Circular A- 133
audits. Lastly, the Corporation's response argues the need for instructions on its site visit form and
Member file checklist charging that this attempts to direct "arbitrary, exacting standards for the
Commission's monitoring of its programs".
                                        Pre-Audit Survey of the
                         California Commission on Improving Life Through Service
                                            Table of Contents



RESULTS IN BRIEF .......................................................................................................................
                                                                                                                                  1

BACKGROUND .............................................................................................................................
                                                                                                                                 2

OVERVIEW OF THE CALIFORNIA COMMISSION ..................................................................
                                                                                                      3

OBJECTIVES. SCOPE. AND METHODOLOGY .........................................................................
                                                                                                        4

FINDINGS AND RECOMMENDATIONS ....................................................................................
                                                                                                             5

APPENDIX A. COMMISSION FUNDING: 1994-95 THROUGH 1999-2000 .........................A . 1

APPENDIX B. DETAILED ENGAGEMENT OBJECTIVES AND
                                                                                                                         B .1
   METHODOLOGY ................................................................................................................

APPENDIX C. CALIFORNIA COMMISSION ON IMPROVING LIFE THROUGH
   SERVICE RESPONSE ..........................................................................................................
                                                                                                                        C.1

                                                                                                         D.1
APPENDIX D. CORPORATION RESPONSE ...........................................................................

APPENDIX E. KPMG's COMMENTS ON COMMISSION RESPONSE .................................E.1
             2001 M Street, N.W.
             Washington, D.C. 20036




October 13, 2000



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP (KPMG) performed a pre-audit survey of the California
Commission on Improving Life Through Service (the Commission). The primary purpose of this
survey was to provide a preliminary assessment of:

   the adequacy of the pre-award selection process;
   the fiscal procedures; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishments reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Results in Brief

Based on the results of the limited procedures performed, we have made the following
preliminary assessments regarding the Commission's systems for administering its AmeriCorps
grants:

    The Commission administers an open, competitive process to select national service
    subgrantees. However, prior to program year 1999-2000, the Commission could not provide
    documentation to support its evaluation of applicants' financial management systems and
    past experience.

    The Commission has developed control policies and procedures to administer the
    Corporation's grant funds. However, prior to program year 1999-2000, differences were
    noted between amounts reported on the Commissions' Financial Status Reports (FSRs)
    submitted to the Corporation and the Commission's financial records.

    The Commission has established controls to evaluate and monitor subgrantees. However,
    the Commission does not have adequate procedures for: (i) obtaining and reviewing
    subgrantees' Office of Management and Budget (OMB) Circular A-1 33, Audits of State,
    Local Governments, and Non-profit Organizations audit reports, and (ii) following up to
    ensure the timely resolution of identified deficiencies. In addition, the Commission did not



                                                                            1

1111           KPMG LLP KPMG LLP a U S I m ~ t e dlhablllty partnership s
               a member of KPMG Internatma a SWISSassoclatlon
rn
    conduct adequate procedures during its site visits prior to program year 1999-2000 to verify
    the financial management activities of its subgrantees.

The section below entitled Findings and Recommendations describes the weaknesses noted
above in further detail and addresses additional issues noted during the survey.

The Commission is a part of an agency of the State of California, and as such, is annually subject
to an OMB Circular A-133, Audits of State, Local Governments and Non-Profit Organizations,
audit performed by the California State Auditors' Office. The State Auditors identified the
Commission's AmeriCorps grants as a major program and reported findings pertaining to the
Commission's AmeriCorps program in fiscal years 1997, 1998 and 1999. In 1997 and 1998, a
state subgrantee of the Commission administering various AmeriCorps programs was cited for
unsupported costs and inadequate monitoring of its subrecipients. Additionally, in 1998 the
State Auditors reported the Commission's inaccurate reporting of AmeriCorps grant activities.
In 1999, the State Auditors cited the above mentioned subgrantee for inadequate monitoring and
reporting of subreceipient activities.

Based on our preliminary assessments, the significant AmeriCorps funding that the Commission
has received, and the nature of the findings identified herein, we recommend the performance of
a full scope audit of the Commission for program years 1994-1995 through 1999-2000.

Additionally, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are implemented to address the conditions reported herein,
and that the Corporation consider these conditions in its oversight and monitoring of the
Commission.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, AmeriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include 15 to 25 voting
Members. Each Commission has a responsibility to develop and communicate a vision and ethic
of service throughout its State.

The Commissions provide AmeriCorps funding to approved applicants for service programs
within their states and are responsible for monitoring these subgrantees' compliance with grant
requirements. The Commissions are also responsible for providing training and technical
assistance to AmeriCorps State and National Direct programs and to the broader network of
service programs in the state. The Commissions are prohibited from directly operating national
service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, and provide effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.

Overview of the California Commission

The California Commission on Improving Life Through Service, located in Sacramento,
California, has received AmeriCorps grant funds from the Corporation for National and
Community Service since program year 1994-95. The Commission operates as part of the State
of California's Office of Planning and Research. The Commission has twenty employees
including an Executive Director, a Deputy Director, a Director of Fiscal Affairs, Directors for
Legal Affairs, Communications, Development, Programs and Administration, and Special
Projects, and various assistant directors and support staff.

As part of the Office of Research and Planning of the State of California, the Commission is
annually subject to an OMB Circular A-133 audit performed by the California State Auditors'
Office. The AmeriCorps grants were identified as major programs in fiscal years 1997, 1998 and
1999, and as noted above, findings related to these programs have been reported each year.

The Commission provided us with the following information for all program years:

                                                                             Number of
                                                                             Subgrantees
                              Total Corporation         Number of          Subject to A- 133
        Program Year              Funding               Subgrantees            Audits*




*   Determination is based solely on dollar value of federal awards passed through the
    Commission for each program year. Remaining subgrantees could be subject to an OMB
    Circular A-133 audit if they received additional federal grant funds from other sources.

Appendix A contains more detailed information on funding received from the Corporation
during program years 1994-1995 through 1999-2000.
Objectives, Scope, and Methodology

We were engaged by the Office of the Inspector General, Corporation for National and
Community Service, to provide an assessment of the systems and procedures in place at the
Commission for administering its AmeriCorps grants and for monitoring the fiscal activity of
subgrantees. The primary purpose of this pre-audit survey was to provide a preliminary
assessment oE

   the adequacy of the pre-award selection process;
   the fiscal procedures at the Commission; and
   the effectiveness of monitoring of its AmeriCorps State subgrantees, including AmeriCorps
   Member activities and service hours and program accomplishment reporting.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

   reviewing applicable laws, regulations, grant provisions, the Corporation's State
   Administrative Standards Tool, and other information to gain an understanding of legal,
    statutory and programmatic requirements;

    reviewing OMB Circular A-133 reports and current program year grant agreements for the
    Commission;

    obtaining information from Commission management to complete flowcharts documenting
    the hierarchy of AmeriCorps grant funding for program years 1994-95 through 1999-2000;
    and

    performing procedures to achieve the objectives detailed in Appendix B to assess the
    Commission's internal controls, selection of subgrantees, administration of grant funds, and
    monitoring of subgrantees, including internal controls over service hours and performance
    accomplishment reporting.

As part of the procedures performed, we documented and tested internal controls in place at the
Commission using inquiries, observations, and examination of a limited sample of source
documents. Finally, we summarized the results of our work to develop the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 13,2000.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not, perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission, or on its compliance with applicable laws,
regulations, contracts and grants. Accordingly, we do not express an opinion on any such
financial statements, or on the Commission's controls or compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.
We provided a draft of this report to the Commission and the Corporation. The Commission's
and Corporation's responses to our findings and recommendations are included as Appendix C
and D respectively. Our comments on the Commission's response is presented in Appendix E.

Findings and Recommendations

Selecting Subgrantees

According to 45 CFR Section 2550.80 (b)(l), "Each State must administer a competitive process
to select national service programs to be included in any application to the Corporation for
funding."

The Commission administers an open, competitive process to select national service subgrantees.
The Commission advertises funding availability through mailing lists, newspapers and
newsletters. In addition, selection officials sign conflict of interest statements annually, receive
an instruction package, and uses a standard form to evaluate each applicant. However, we
identified the following areas for improvement during the selection process.

        Assessment of an Applicant's Financial Management System

Due to a lack of documentation, we were unable to confirm whether the procedures followed by
the Commission prior to program year 1999-2000 included a process to identify whether a
potential subgrantee had a financial management system that provides adequate accounting for
allowable and unallowable costs, documentation of expenditures, allocation of costs and cash
management. Office and Management Budget Circular A- 102, Grants and Cooperative
Agreements with State and Local Governments, as revised, prescribes the need for assessing the
adequacy of an applicant's financial management system, by relying on readily available sources
of information, such as audit reports, to the maximum extent possible. It also prescribes that if
additional information is necessary to assure prudent management of funds, it shall be obtained
from the applicant or from an on-site review. No recommendation is considered necessary at
this time because the Commission revised its procedures to include documentation of its grant
evaluation of applicant's financial management systems beginning with program year 1999-
2000.

         Assessment of an Applicant's Past Experience

Due to a lack of documentation, we were unable to determine whether the procedures followed
by the Commission prior to program year 1999-2000 included a process to assess the potential
subgrantee's past experience. 45 CFR Section 2522.410 (b)(2), Organizational Capacity,
prescribes the basis upon which the Commission is required to consider the capacity of an
organization to carry out the program, which includes consideration of the past experience of an
organization or program in addition to other factors. No recommendation is considered
necessary at this time because the Commission revised its procedures to include documentation
of its evaluation of grant applicant's past experience beginning with program year 1999-2000.
Administering Grant Funds

As part of the grant administration process, "Grantees are responsible for managing the day-to-
day operations of grant and subgrant supported activities. Grantees must monitor grant and
subgrant supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved. Grantee monitoring must cover each program, function
or activity" (45 CFR Section 2541.400 (a)).

The Commission has developed and implemented procedures that are intended to provide
reasonable assurance that grant funds received from the Corporation are properly administered.
Procedures are in place to withhold funding payments if subgrantees do not submit Financial
Status Reports (FSRs) timely; to manage cash draw downs and disbursements to subgrantees
made by the Office of Planning and Research since 1994, as the Commission's fiscal agent; and
to ascertain whether subgrantees have met their matching requirements. The Commission's
personnel have adequate skills and experience to manage and administer Corporation grant
funds. However, we identified the following areas for improvement within the administering
process.

        Discrepancies between Financial Status Reports and Financial Records

Certain Financial Status Reports (FSRs) that were submitted to the Corporation during program
years 1995-1996 through 1997-1998, did not agree to the financial records that were maintained
by the Commission. Examples of FSRs that were submitted to the Corporation that did not
agree to the financial records of the Commission include the FSR for the Program Development
and Assistance Training (PDAT) grant for September 30, 1997 and June 30, 1998, and the
AmeriCorps Grant for June 30, 1995. 45 CFR Section 2543.2 1(a) prescribes standards for
financial management systems of grant recipients. Federal grant recipients financial
management systems are required to provide accurate, current, and complete disclosure of the
financial results of each federally sponsored project or program. Financial management systems
are also required to provide for records that identify the source and application of funds for
federally sponsored activities. No recommendation is considered necessary at this time because
the Commission implemented reconciliation and documentation procedures to correct these
problems during fiscal year 1998.

        Documentation of Financial Management Processes at the Commission Level

A comprehensive policies and procedures document has not been developed to address the
financial management processes at the Commission level. For example, written polices and
procedures do not exist for tasks conducted by personnel who are responsible for the
administration and accounting of grant funds, to ensure consistent and appropriate administrative
and financial oversight of the Commission's direct expenditures and those of its subgrantees.
OMB Circular A-133 Compliance Supplement, Part 6 - Internal Control, suggests that clearly
written operating policies and procedures should form part of the Commission's control activity
to help ensure management's directives are carried out.
         Document Retention

Certain documentation required to be maintained by the Commission could not be located. For
example, the Commission could not locate:

         1998-99 site visit reports for Building Individual Community (1 of 1 such report
         requested)
         1996-97 progress reports for Watershed-CCC (3 of 3 such reports requested)
         1996-97 year end FSR for El Dorado Co. Tahoe-Sierra AmeriCorps

45 CFR Section 2543.53 (b) provides requirements for record retention. Financial records,
supporting documents, statistical records and all other records pertinent to an award are to be
retained for a period of three years from the date of the submission of the final expenditure
report, or for awards that are renewed quarterly or annually, from the submission of the quarterly
or annual financial report, as authorized by the awarding agency.

         Timeliness of Subgrantee FSRs

AmeriCorps Provisions 16 (a) prescribe that Grantees such as the Commission should set
subgrantee reporting requirements consistent with their need for timely and accurate reports.
The Commission requires FSRs to be submitted on a quarterly basis during a program year. The
FSRs are due 30 days after the quarter ends, with the exception of the final FSR being due four
months following the last quarter. We have been informed that the Commission had procedures
in place to monitor the timely submission of subgrantees FSRs during program years 1994- 1995
through 1997-1998. Procedures included follow-up through e-mail. Our procedures identified 8
subgrantee FSRs which were submitted late out of a total of 40 selected for review. Follow-up
on these late submissions could not be verified due to missing e-mail documentation.

         Recommendations

We recommend the Commission focus on measures for improving the effectiveness of its grant
administration process as follows:

    rn   Prepare a comprehensive manual that is reflective of its financial responsibilities. This
         manual should include:

                      Subject matter
                      Source (identification of key documents)
                      Identification of responsible official(s)
                      Process
                      Related internal controls in place
                      Timelines (for review and reporting)
                      Sample documents
                      Requirements for the retention of documents
                      Filing requirements

         This comprehensive manual should seek to incorporate documented procedures already
         developed for certain areas.
        Improve its record retention practices by the use of a file checklist that identifies the
        nature and type of documents that should be retained. This checklist should also identify
        the requirements for record retention. A periodic review should be conducted by
        someone other than the individual who is responsible for filing to ensure that appropriate
        procedures are being followed. Additionally, information should be stored in a manner
        that will facilitate retrieval.

        Document and implement procedures regarding follow-up on untimely FSR submissions
        by subgrantees. These procedures must emphasize the need for consistent follow up
        action on all subgrantees who are late at any time. The Commission should continue to
        implement its policy of refusing to reimburse subgrantee invoices without timely and
        accurate FSRs.

Evaluating and Monitoring Subgrantees

As noted above, the Commission is responsible for monitoring subgrant supported activities to
assure compliance with applicable Federal requirements and that performance goals are being
achieved. The Commission has established controls to evaluate and monitor subgrantees, which
include reviewing program and financial reports and scheduling site visits for each subgrantee
during the grant period. Commission personnel use a standard site visit report form to document
results of each visit, and the Commission notifies the subgrantees of the results of these site
visits, including strengths, weaknesses, concerns, recommendations, and any necessary follow-
up requirements.

In addition, the Commission evaluates program accomplishments reported by the subgrantees.
The Commission uses a standard form to compile program objectives which were originally
stated in the grant application. By establishing the objectives in this format and sharing it with
the subgrantees at the beginning of the program year, it is clear how the program will be
evaluated and what types of documentation must be maintained. Three times per year, the
Commission requires that the programs address their accomplishments towards meeting the
stated objectives, citing both numerical and other informational data. (In program year 1994-95
these reports were required quarterly.) The Commission personnel then verify this information
as part of their site visits.

However, we identified the following areas for improvement related to the evaluation and
monitoring of subgrantees.

        Review of OMB Circular A-133 Audit Reports

The Single Audit Act, as amended in 1996, requires nonfederal entities expending $300,000 or
more in Federal awards in a year to have audits performed in accordance with OMB Circular A-
133. OMB Circular A-133 requires a grantee, such as the Commission, to be responsible for
ensuring that audits of subgrantees are performed where required, and that the subgrantees take
prompt corrective action on any findings. OMB Circular A-133 Compliance Supplement, Part 6
-Internal Control, suggests that review of and follow-up on subgrantees' audit reports is a key
component of a program to monitor subgrantees' compliance with federal grant requirements.

However, the Commission has not implemented an adequate process for obtaining and reviewing
OMB Circular A-133 audit reports for its subgrantees and following up on corrective actions
taken by subgrantees on reported findings. For example, the Commission's report tracking
spreadsheet identifies that an A-133 audit report was received for the LA Conservation Corps (a
subgrantee of the Commission) for the fiscal year ending 1996. However, the report that was
received contained only one of three required components that should have been received.

Follow-up procedures on corrective actions are not being conducted at all in certain instances,
and in other instances, not in a consistent, timely manner. For example, documentation to
support follow up procedures performed by the Commission on the corrective actions taken in
response to the State Auditors' findings reported in fiscal years 1997, 1998 and 1999 on the
California Conservation Corps (CCC), a subgrantee of the Commission, was not available. For
audit findings identified related to non-state agency subgrantees, the Commission followed up by
requesting corrective plans, but did not consistently verify that corrections had been made.

        Adequacy of the Site Visit Form

The Commission's monitoring process prior to program year 1999-2000, included the use of a
standard form (the site visit planning form) to provide guidance to the person performing the site
visit. However, this form did not instruct the evaluator to perform such tasks as: (i) verifying
matching amounts to supporting documents; (ii) agreeing grant expenditures to supporting
documents to verify the existence and allowability of costs; (iii) verifying amounts reported by
the subgrantee to the general ledger; and (iv) reviewing and assessing the adequacy of the
subgrantee's financial policies and procedures. According to OMB Circular A-133, the
Commission is required to monitor the activities of subgrantees as necessary to ensure that
Federal awards are used for authorized purposes in compliance with laws and regulations, and
the provisions of grant agreements. The Commission's 1999-2000 revised standard site visit
form (the site assessment survey) provides guidance with respect to these procedures. However,
we noted that it did not include procedures to document the specific work done or to retain
copies of the supporting documents.

        Review of Member Timesheets

As part of the Commission's site monitoring process, the Commission documents certain aspects
of its review of Member timesheets. However, prior to program year 1999-2000, the
Commission did not consistently document which Member timesheets were reviewed during site
visits and what was specifically reviewed during a site visit. In addition, the Commission did not
document the sample size selected and the rationale behind the selection. We were also
informed that other requirements, such as evidence of a Member's awareness of prohibited
activities, is reviewed at the same time as the timesheets. However, no specific evidence of this
review was provided.

According to OMB Circular A-133, the Commission is required to monitor the activities of
subrecipients as necessary to ensure that Federal awards are used for authorized purposes in
compliance with laws and regulations and the provisions of grant agreements.

The Commission's Member file checklist implemented in program year 1999-2000 includes
requirements for performing these procedures. However, we noted that it did not include
procedures to document the basis used to select Member files.
We recommend the Commission focus on measures for improving the effectiveness of its
evaluation and monitoring of subgrantees as follows:

       Improve its evaluation and monitoring procedures by developing and implementing a
       process for obtaining OMB Circular A-133 audit reports from its subgrantees and
       following up to ensure that timely corrective actions were taken on audit findings that
       have been identified. This process should include documenting, for each of its
       subgrantees: (i) whether an OMB Circular A- 133 audit was required to be conducted, (ii)
       whether or not the audit was actually conducted, (iii) collection and review of the report,
       and (iv) follow up procedures performed for missing reports and to resolve reported
       findings.

        Include instructions in the standard site visit form to more specifically instruct evaluators
        as to required documentation and record retention practices.

        Include instructions on the Member file checklist to document the basis used to select
        Member files for review, and identification of those actually reviewed during the site
        visit.



This report is intended solely for the information and use of the Office of the Inspector General,
the management of the Corporation for National and Community Service, the management of the
California Commission on Improving Life Through Service, and the United States Congress and
is not intended to be and should not be used by anyone other than these specified parties.
                                           Commission Funding                           Appendix A

          The table below and the flowcharts on the following pages depict the Commission's funding
          over the past six program years.


Funding Source
and Type                    1994-95         1995-96        1996-97       1997-98        1998-99       1999-2000

CNS Formula
 Grant Funds

CNS Competitive
 Grant Funds

America Reads                                                                            2,795,294      4,867,28 1


CNS Educational
 Only Awards

Government's Innovative
 Award Funds

Government's Initiative
 Award Funds


FEMA Funds                                                                   30,400

Promise Fellow Funds                                                                       195,833        24 1,600

PDAT Funds                                      100,000       140,000        168,000       384,000        320,000

Administrative Funds            760,000         750,500       750,000       756,000        750,000        750,000

State Disability Funds                          351,316       338,476                      485,000

State Matching Funds            465,353         194,580       194,580        696,324      1,521,878       436,115
                                                                      Appendix A
                                Commission Funding

            Corporation for National and Community Service

Funding to the California Commission on Improving Life Through Service
                             (1994-1995)


  L
  AmeriCorps                         AmeriCorps                     4dministration
   Formula                           Competitive                       Funds
    Funds                              Funds                          $760,000
  $5,877,739                         $6,374,803

    Match                              Match                           Match
     $0                                 $0                            $465,353




                                         I
         Total CNS Funds Retained by the Commission $760,000

                Total Commission Matching Funds $465,353

         Total CNS Funds Awarded to Subgrantees $12,252,542




                      1
                AmeriCorps
                                                        1
                                                   AmeriCorps
               Formula Funds                       Competitive
                $5,877,739                           Funds
                                                   $6,374,803


                  Match                               Match
                $4,053,137                          $3,726,753

               # o f Subs: 16                       # of Subs: 6
               # of Sites: 160                     # of Sites: 87
                                              Commission Funding


                              Corporation for National and Community Service

         Funding to the California Commission on Improving Life Through Service
                                      (1995- 1996)


   *                          +                            +                 +             +
AmeriCorps                  AmeriCorps               Governors             PDAT      Administration
 Formula                    Competitive              Innovative            Funds        Funds
  Funds                       Funds                    Award              $100,000     $750,500
$8,601,749                  $7,288,642                $250,000
                                                                                        Match
                                                                                       $194,580
  Match                       Match                     Match               Match
   $0                          $0                        $0                  $0       Other CNS
                                                                                        Funds
                                                                                      $351,316




                        Total CNS Funds Retained by the Commission $1,100,500

                                  Total Commission Matching Funds $194,580

                            Total CNS Funds Awarded to Subgrantees $l6,24 1,707




             v
     AmeriCorps
                                               +
                                          AmeriCorps
                                                                      v
                                                                  Government
    Formula Funds                         Competitive              Innovative
     $8,601,749                             Funds                    Award
                                          $7,288,642                $250,000


          Match                              Match                  Match
        $5,263,090                         $2,987,264                $0

       # o f s u b s : 21                  # of Subs: 6
       # of Sites: 174                    # of Sites: 64
                                     Commission Funding


                          Corporation for National and Community Service

        Funding to the California Commission on Improving Life Through Service
                                     (1996-1997)


                                 A                               L            L
     4meriCorps                  AmeriCorp:                        PDAT       4dministration
      Formula                    Competitive                       Funds         Funds
       Funds                       Funds                         $l4O,OOO       $750,000
     $8,709,383                  $9,367,02 1
                                                                                 Match
                                                                                $194,580
       Match                       Match                          Match
        $0                          $0                             $0           Other CNS
                                                                                  Funds
                                                                                $338,476




          I                           I
                   Total CNS Funds Retained by the Commission $890,000

                            Total Commission Matching Funds $194,580

                    Total CNS Funds Awarded to Subgrantees $18,414,880




         AmeriCorps                            AmeriCorps                   Disability
        Formula Funds                          Competitive                   Funds
          $8,709,383                             Funds                      $338,476
                                               $9,367,02 1


            Match                                 Match                      Match
          $6,956,252                            $6,522,993                    $0

         # of Subs: 22                          # of Subs: 10
         # of Sites: 69                        # of Sites: 184



Note: The Governors Innovative Award of $250,000 was carried forward from last year and used
as a hybrid fund and divided between formula and competitive funds.
                                            Commission Funding


                              Corporation for National and Community Service

              Funding to the California Commission on Improving Life Through Service
                                           (1997- 1998)


                    f                                                          .c
AmeriCorps             AmeriCorps              FEMA        Education        PDAT       Ydministration
 Formula               Competitive              Funds     Award Only        Funds         Funds
  Funds                   Funds                $30,400      $10,000        $168,000      $756,000
$8,3 14,433            $1 1,358,635


  Match                  Match                  Match       Match                          Match
                                                                            Match
   $0                     $0                     $0          $0                           $696,324
                                                                             $0




                           Total CNS Funds Retained by the Commission $924,000

                                  Total Commission Matching Funds $696,324

                            Total CNS Funds Awarded to Subgrantees $l9,7 13,468




     AmeriCorps                       AmeriCorps                 FEMA                  Education
    Formula Funds                     Competitive                 Funds               Award Only
      $8,314,433                         Funds                   $30,400                $10,000
                                      $1 1,358,635


        Match                            Match                   Match                  Match
      $12,856,840                      $5,395,220                 $0                     $0

      # of Subs: 24                   # of Subs: 12                                   # of Subs: 1
     # of Sites: 167                  # of Sites: 18 1
                                               Commission Funding


                                 Corporation for National and Community Service

                  Funding to the California Commission on Improving Life Through Service
                                               (1998- 1999)


2
4meriCorps
                        *
                   AmeriCorps
                                        2
                                         America
                                                             *
                                                        Promise           Education        PDAT
                                                                                                *      z
                                                                                                       Administration
 Formula           Competitive            Reads          Fellows           Award           Funds          Funds
  Funds              Funds                Funds           Funds             Only          $384,000       $750,000
$8,647,447         $13,460,337          $2,795,294      $195,833          $309,430
                                                                                                          Match
                                                                                                        $1,521,878
  Match              Match                Match           Match             Match           Match
   $0                 $0                   $0              $0                $0              $0         Other CNS
                                                                                                          Funds
                                                                                                         $485,000




                            Total CNS Funds Retained by the Commission $1,134,000

                                  Total Commission Matching Funds $1,521,878

                             Total CNS Funds Awarded to Subgrantees $25,893,341




 AmeriCorps           AmeriCorps           America Reads          'romise Fellows      Education       Disability
  Formula             Competitive             Funds                    Funds          Award Only        Funds
   Funds                 Funds              $2,795,294               $195,833          $309,430        $485,000
 $8,647,447           $13,460,337


    Match                Match                 Match                  Match              Match           Match
  $5,104,908          $1 5,556,743           $2,342,493                $0                 $0              $0

 # of Subs: 2 1       # of Subs: 14          # of Subs:8                               # of Subs:9
# of Sites: 246      # of Sites: 2 18       # of Sites: 65         # of Sites: 11     # of Sites: 69
                                                  Commission Funding

                                   Corporation for National and Community Service

                  Funding to the California Commission on Improving Life Through Service
                                               (1999-2000)


                    .t           t                            L .ti
4meriCorps      AmeriCorps        America         Promise      Education        Governors          PDAT          Administration
 Formula        Competitive        Reads           Fellows    Award Only         Initiative        Funds            Funds
  Funds            Funds         $4,867,281         Funds      $305,900           Award           $320,000         $750,000
$8,414,948      $15,274,295                       $24 1,600                     $2,863,500


  Match           Match             Match          Match        Match             Match            Match             Match
   $0              $0                $0             $0           $0                $0               $0              $436,115




                              Total CNS Funds Retained by the Commission $1,070,000

                                       Total Commission Matching Funds $436,115

                                Total CNS Funds Awarded to Subgrantees $3 1,967,524




      I
 AmeriCorps
  Formula
                         AmeriCorps
                         Competitive
                                               America
                                                Reads
                                                               'romise Fellows
                                                                   Funds
                                                                                        Education
                                                                                       Award Only
                                                                                                             Governors
                                                                                                              Initiative
   Funds                    Funds             $4,867,28 1         $241,600              $305,900               Award
 $8,414,948              $15,274,295                                                                         $2,863,500


   Match                    Match               Match              Match                  Match                Match
 $4,439,139               $9,907,086          $2,167,047            $0                     $0                   $0

 # of Subs:20             # of Subs: 15       # of Subs: 18     # of Subs: 9            # of Subs:6          # of Subs: 1
# of Sitex263            # of Sites: 161      # of Sites:58     # of Sites: 9          # of Sites:42         # of Sites: 1
                          Detailed Engagement Objectives
                                 and Methodology                                  Appendix B

Internal Controls


Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the preparation
of reliable financial statements and Federal reports; (2) maintain accountability over assets; and
(3) demonstrate compliance with laws, regulations, and other compliance requirements.

In order to achieve the above objective, we identified the compliance requirements with a direct
and material effect on the Commission's AmeriCorps grant program, as follows: activities
allowed or unallowed and allowable costs; eligibility; matching; period of availability of
Corporation funds; suspension and debarment; subrecipient monitoring; and reporting by the
Commission to the Corporation. We then interviewed key Commission personnel to assess the
Commission's controls surrounding these requirements.

Selecting Subgrantees

Our objectives were to make a preliminary assessment:

    of the adequacy of the systems and controls utilized by the Commission to select national
    service subgrantees to be included in an application to the Corporation;

    as to whether the Commission evaluated the adequacy of potential subgrantee financial
    systems and controls in place to administer a Federal grant program prior to making the
    award to the subgrantees; and

    as to whether Commission involvement in the application process involved any actual or
    apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management
personnel and documented procedures performed by the Commission during the pre-award
financial and programmatic risk assessment of potential subgrantees. We also reviewed
documentation to determine if conflict of interest forms for each subgrantee applicant tested
were signed by selection officials annually and maintained by the Commission.

Administering Grant Funds

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission to oversee and monitor the performance and progress of funded subgrantees;

    make a preliminary assessment as to whether the Commission's organizational structure and
    staffing level and skill mix are conducive to effective grant administration;
                          Detailed Engagement Objectives
                                 and Methodology                                Appendix B

   make a preliminary assessment as to whether the Commission provided adequate guidance to
   subgrantees related to maintenance of financial systems, records, supporting documentation,
   and reporting of subgrantee activity;

   make a preliminary assessment of the adequacy of financial systems and documentation
   maintained by the Commission to support oversight of subgrantees and required reporting to
   the Corporation (including Financial Status Reports, progress reports, enrollment and exit
   forms, and change of status forms); and

   determine whether the Commission has procedures in place to verify the accuracy and
   timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports and progress
reports submitted by subgrantees, as well as Financial Status Reports submitted by the
Commission to the Corporation, to preliminarily assess the accuracy of submitted Financial
Status Reports and progress reports. We also preliminarily assessed whether the Commission's
implementation of the Web Based Reporting System (WBRS) had enhanced the grant
administration process.

Evaluating and Monitoring Subgrantees

Our objectives were to:

    make a preliminary assessment of the adequacy of the systems and controls utilized by the
    Commission, in conjunction with the Corporation, to implement a comprehensive, non-
    duplicative evaluation and monitoring process for their subgrantees;

    determine whether the Commission has an established subgrantee site visit program in place
    and make a preliminary assessment of the effectiveness of its design in achieving monitoring
    objectives;

    make a preliminary assessment of the adequacy of the Commission's procedures used to
    assess subgrantee compliance with Corporation regulations (e.g., those governing eligibility
    of Members, service hour reporting, prohibited activities, payment of living allowances to
    Members and allowability of costs incurred and claimed under the grants by subgrantees,
    including reported match);

    make a preliminary assessment of the adequacy of the Commission's procedures for
    obtaining, reviewing and following up on findings included in the subgrantee OMB Circular
    A- 133 audit reports, where applicable;

    determine whether program goals are established and results are reported and compared to
    these goals; and

    make a preliminary assessment of the adequacy of the procedures in place to evaluate
    whether subgrantees are achieving their intended purpose.
                         Detailed Engagement Objectives
                                and Methodology                               Appendix B


In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We reviewed
the documentation to preliminarily assess the adequacy of the procedures performed by the
Commission to assess financial and programmatic compliance and related controls at the sites.
We also determined whether the Commission received and reviewed OMB Circular A-133 audit
reports from subgrantees.
                                                                 Appendix C'




January 25,2001


Luise S. Jordan
Inspector General
Office of Inspector General
Corporation for National Service
1201 New York Avenue, NW
Waslungton, D.C. 20525

Dear Ms. Jordan:

Thank you for the opportunity to respond to the draft audit report dated
December 28,2000. Whle we appreciate the recommendations you made to
improve our operations, we must disagree with your report conclusion that
the extent of problems you found could be considered sufficient to justify a
comprehensive a u d t of the commission covering a five-year period. For
example, the a u d t &sclosed no condtions that would result in the return of
funds to the federal government because they had been misspent.

In support of your conclusion, you asserted ten adverse condtions, but made
only seven recommendations because you noted the adequacy of our
corrective action for three items. Since it would not be reasonable to justify a
five-year audit based on condtions where you were satisfied with our
corrective action, we will only respond to your seven recommendations in
our response. Whle each of the recommendations has some minimal degree
of merit, the adverse conditions you a t e as a basis for the recommendation
are isolated, the bad effects of the condition are non-existent, and / or the
specific criteria you apply is generic and does not address the specifics of the
condition.

I.                Selecting Sub Grantees
No Recommendations by the hspedor General

11.               Administering Grant Funds

Administering Grant Funds: Recommendation One
Documentation of Financial Management Process at the Commission Level
     ,.   '   /



Piepare h cbmpr&ensive manual that is reflective of its financial responsibilities.
@is manual should include:
Subject matter
Source (identification of kpy documentation)
ldent$cation'of respons~bleoj?cial is)
Process
Related internal controls in place
Timeliness (for review and reporting)
Sample docttmen ts
Requirements fir retention of documents
Filing requirements

This comprehensive manual should seek to incorporate documented procedures
already dmeloped for certain areas.
T h s recommendation is based on the selecbve extracbon of a sentence from
Part 6 of Circular A-133's Compliance Supplement (attached). T h s selecbve
extra&on, without the accompanying context, misrepresents the passage.
T h s passage reads:

   T h s Part 6 is intended to assist non-Federal entities and their auhtors in
   complying with these requirements by describing for each type of
   compliance requirement the objecbves of internal control, and certain
   characteristics of internal control that when present and operating
   effectively may ensure compliance with program requirements. However,
   the characterizations reflected in h s Part 6 may not necessarily reflect
   how an entity considers and implements internal control. Also, h s part
   is not a checkkt of required internal control characteristics. Non-federal
   entities could have adequate internal control even though some or all of
   the characteristics included in Part 6 are not present. Further, non-Federal
   entities could have other appropriate internal controls operating
   effectively that have not been included in Part 6. Non-federal entities and
   their audtors will need to exercise judgment in determining the most
   appropriate and cost effective internal control in a gven environment or
   circumstance to provide reasonable assurance for compliance with federal
   program requirements.
Thus, we believe Part 6 clearly provides for management to determine the
extent of a comprehensive manual that is required in our circumstance. Also,
that the tack of any items not in our manual could not be construed to be
noncompliance with federal regulations. Further, that the content of our
comprehensive manual could not reasonably be used as a basis to warrant a
five year audit of our operations unless the lack of adequate poliaes and
procedures was established as the cause of sigmficant misuse of federal
funds, whch the auditors did not establish.
Administering Grant Funds: Recommendation Two
Document Retention
Improve its record retention by the use of a file checklist that identrfies the nature and
type of document that should be retained. This Checklist should also identzfij the
requrrerneirts for record retention. '4 periodic ra)ieuji~oddbe colldrlctrd bv ionleo)lr
other tluzn the individtral who is responsible for fiiing to ensure that approprzatz
procedures are beingollou~ed..4dditiomllil;  - i?iforrnation
                                                  .           drodd ire i t o r d i r l ~7
manner that will facilitate revim.

T h s recommendation is based on our inabilitv to produce five site visit
reports, progress reports or year-end FSRs for h x a l vears 1996-97 and 1998-99
when requested in the fall of 2000. We believe that the documents we could
not locate should be put in context of these same documents that we had
already provided to the State Aucbtor. Based on the State Auditor's work
papers that were provided to the auditor to review, we were able to provide
the State Auditor with 177 of 181 site visit reports, progress reports and FSR
269s for fiscal year 1997-98 and 199899. Whle we agree that we should be
able to find copies of all documents, h s concbtion does not appear to jusbfy
the cost of a five-year a u h t of the program at the Commission.

Administering Grant Funds: Recommendation Three
Timeliness of Sub grantees FSRs

Document and implement procedures regarding follow-up on timely FSR
submissions by sub grantees. 7'hese procedures must emphasize the need for
consistent follow up action on all sub grantees u7ho are late at any time. 77w
Commission should continue to implement its policy of refusing to reimburse sub
grantee invoices without timely and accurate FSRs.

T h s recommendation is based on the identification of two FSRs that were
identified as being late (one based on our request that a sub grantee revise its
FSR). T h s conchtion has no bad effect stated in the aucht report and we
believe none exists. In adhtion, it is im rtant to note that the State AucGtors
workmg papers that were provided to IF    e'auchtor for review &sclose that for
fiscal years 1997-98 and 1998-99, the State Auhtor asked to review 76 FSR
269s and we were able to provide each of them upon request. Since there is
no bad effect to an individual FSR being "late", &us condition does not
appear to justify the expendture of taxpayer dollars for a five-year audit of
the Commission.

Administering Grant Funds: Recommendation Four
Use of Web Based Reporting System
Continue to work with the Corporation to identi' and resolve the programmatic
issues arisingfrorn the use of WBRS. Alternatively, the Commission should consider
other means of reporting, such as a manually compiled version.

T h s recommendation is based on the observation that wtule we have fully
implemented WBRS, the federal Corporation has programmatic problems
with the system. The only bad effect stated is that a report was not
electronically transmitted to the Corporation for National Service. It does not
demonstrate that a five-year aucbt at the state Commission would result in
findings justifying the cost of the audit.
Lt73RS is a nationwide reporhng system. The Comrmssion has been proachve
In addressing system start-up problems including volunteering to be one ot
the two states nationwide to pilot the system. It is u-tappropriate that start-up
system problems be idenhfied as an adverse conchtion to the Commission.
111.   Evaluating and Monitoring Sub Grantees

Evaluating and Monitoring Sub Grantees: Recommendation One
Review of OMB Circular A-133 Audit Reports
 Improve its maluation and monitoring procedures by developing and implantmg a
process for obtaining O M B Circular A-1 33 audit reports from its sub grantees and
following up to ensure that timely corrective actions were taken on auditfindings
 that have been identified. This process should include documenting, for each of zts
sub grantees: (i) whether an OhIB Circular A-133 audit was required to be
conducted, (ii)whether or not the audit was actually conducted, (iii) collection and
 revzew o f the report, and (iv)follow up proceduresfor missing reports and to resolve
reported-f ndings.

The basis for h s recommendation was (1)the identification that a single
audit report for fiscal year 1995-96 contained only one of the three required
components that should have been received and (2) that follow-up
procedures on corrective actions are not being conducted at all in certan
instances, and in other instances, not in a consistent, timely manner. The
latter observation is based on our knowledge of the State Auditors fmdings at
a state level sub recipient, the California Conservation Corps and our follow-
up on a u d t findings. We believe the Inspector General's audit report lacks
the necessary context contained in the State Aud~tor'sworkmg papers that
were provided to the audtor to review. The State Auditor's worlung papers
show that we had a system to track A-133 reports during both 1997-98 and
199899, that we received 50 of 50 non-state sub grantee a u h t reports
applicable to those two years and that none of the 50 non-state sub grantee
audit reports contained any AmeriCorps findings. In addition, for those
years, the State Audtor's staff discussed any findings and corrective acbon
related to our state sub grantee, the California Conservation Corps, with our
staff at the exit conference. Also, the status of the follow-up by the state
audtor in subsequent years is included in a schedule in the State Audtor's
report. Our understanding is that copies of those schedules were provided
by the State Auditor's representative to the audtor who conducted h s audit.
Evaluating and Monitoring Sub Grantees: Recommendation Two
Adequacy of the Site Visit Form
Include procedures in the standard site visitform to more specifically instruct
evaluators as to required documentation and record retention policies.

T h s recommendation is based on the observation that our 1999-2000
standard site visit form (the assessment survey) does not include procedures
to document the speafic work done or to retam coples ot the supporbng
documents.

The aiterion ated by the audtor is silent to anv requirement that we retam
copies of supporhng documents. The work we perform is site momtonng
and is not purported to be an a u d t conducted in accordance with a u d t
standards. It is interesting to note that even the Arnencan tnstitute of
Cerbfied Public Accountants au&t standards does not require auditors to
retain copies of supporfing documents (attached). Whde sigruficant sub
recipients do obtain au&ts conducted in accordance with Goverrunent Au&t
Standards that have supplemental a u d t standards related to work papers,
even these standards do not require that copies of supporbng documents be
retained. As a result, h s recommendation does not seem to provlde that an
audit of the commission covering a five-year period would be cost justified.

Evaluating and Monitoring Sub Grantees: Recommendation Three
Review of Member Timesheets

Include procedures on the Afember file checklist to document the baszs used to select
LClernber files.

T h s recommendation is based on the observation that the Member tile
checklist does not include procedures to document the basis used to select
Member files. The a u d t is silent as to any criteria that would require h s
practice for a monitoring instrument. Apparently, the auchtors are infemng
that one of the supplemental work paper standards applicable to Government
A u l t Standards that exceed AICPA a u l t standards is applicable to program
monitoring. Tlus explanatory language states "documentation of the work
performed to support sigruficant conclusions and judgments, including
descriptions of transactions and records examined that would enable an
experienced auditor to examine the same transactions and record". Wtule
h s standard is applicable to Circular A-133 audits, it is not applicable to
program monitoring since program monitors are not required to follow these
standards and do not purport to follow these standards. Thus, h s condhon
appears to provide no basis to support a conclusion that a five-year a u d t of
the Commission is warranted.

Conclusion

In closing, we fuily support the federal government's authority to carry out
additional audits as described in OMB Circular A-133. The circular states that
" A n y additional audits shall be planned and performed in such a way as to
build upon work performed by other auditors." As referenced numerous
times in h s response, the Inspector General failed to build upon the work
and extensive body of knowledge produced by previous State Audits. The
narrative supporbng the aucht report conclusion that a five-year au&t is
warranted does not put the finlngs in context of what was documented in
the previous Circular A-133 auchts of our organization. In conclusion, the
cited adverse conchtions are isolated, the bad effects of the conditions are
non-exlstent and provide no basis to support a conclusion that a full tive vear
a u d t of the Commission is tvarranted.


If you have any questions or need any additional infornabon on h s
response, please do not hesitate to contact Maria Vail or Clauda Anderson of
my staff at (916) 323-7646.


Sincerely,



at&
CHUCK T. UPPLE
Executive Director


Enclosures
               PART 6      - INTERNAL CONTROL                                               lnsirtute of Cerlified Public Aicounlanr; A:C!'\I and a
                                                                                            ALCPA aud~tgu~de.Consrdcrorio~~                             ,
                                                                                                                                    of Internal Conrroi , wd F,rw
                            INTRODUCTIOS                                                    ctal Sraremcnr Audrr ~ncorporatethe cornponenls ~l       lnt,m,i
      The A- 102 Common Rule and OMB C ~ ~ u l A.       a : 110 q u i r e that              presented ~nthe COSO Repon                                        % \ -'
 non-Federal entrties recelvlng Federal awards (e g audttee manage-                            n l s pan 6 describes characrerisrics of 1n1er%lcontrol .
 mml) establish and maritan Internal controi designed to nasonably                                                                                                i
                                                                                            each o i ,he f ~ v ecomponents oi ~nternaicontrol tnat m o b , ~ ! a l ~ n ~
                                                                                            ably assure complrance with the requirement, o f Federal lawsnh
 ensure cornp!~ancewith Fcdenl laws. regulauons. ana program
  cornpl~anccrequ~rements OMB Crrcular A 133 requrres auditors 10                           latlons. and program comphancc requtrements h descrlplo, pf            1
                                                                                            components of internal control and examples of characterlstrcrcon     4
  obtain an understand~ngof the non-Federal entity's tnternal control
  over Fedcral program5 suff~cientto plan the aud~tto support a low                          mon to the I4 types of compliance requirements are listed ktov
  R S S C ~ XIe\el
                ~     of control rrsk for major programs, plan the test~ngof                 Objef ! les of internal control and examples of
                                                                                                                                                                Ip.
  lnternal conuol over major programs to suppon a low assessed level                         ctfis ro :aeh of 13 of the 14 types of compliance requirements b,
  of control risk for the assertions relevant to the compltance requue-                      low ths ~ n t r c d ~ c t ~ (Because
                                                                                                                         on       Sptc~alTests and Rovlsrom
  ments for each rnyor program. and. unless lntemal control I S likelv                       unlque for eacn program. we could not provldt spec:itc control&,,
  \o be ~neffect~ve,     perform testlng of tnternal conuol as planned                       jectl\es and chwactensrrcs for t h ~type
                                                                                                                                   i of cornpilance r e q u u e ~ ~ ,



i
       This Pan 6 is lntenbd to ass~stnon-Federal entiues and thetr a;l?
  d~torsIn complying wlrh these rqummenls by descr~btngfor each                  Conjrol Environment sets the tone of an organtzarion influenclna
   type of compliance nqumment. the objectives of tntemal control.               the conml consciousness of its people. !t I S the foundahon 111
   and cerlain chuacur~sticsof ~nternaicontrol that when present and             other components of ~nternalcontrol, providing d~scipllneand
   operating effectively may cnsun compiianct w~thpr&rn rquire-                / scrucure
                                                                                             Sense of conducting operations ethically. as e~idcncedby a
   ments. However, the categorlzatlons rcflecied in this Pan 6 may
   not necessarily reflect how an entity considers and implements In- I
                                                                                \            code of conduct or other verbal or written d ~ r e c t ~ ~ e I
   remal control. Also, t h ~ spart I S nor a checklist of required internal        /        If there is a governing board. the Board has cstabltshed
   control characteristics. Non-Federal entitles could have adesuatc ,                       Audit Con~rn~trcc    or equivalent that i s respons~blefor en.            1
   internal control even though some or all of the chvacterrst~cs~ n - i                     gagtng thc auditor. r ~ ~ ~ wail  i nrepons
                                                                                                                                   g       and comrnunlca.
   cluded in Pan 6 are nor present. Funher, non-Federal entities could ',                    rions from the auditor, and ensurmg that audit findings 2nd
    have other appropriate internal controls operating effectively t h a ~
    have not betn included in this Part 6. Non-Fderal entities and their
                                                                                        i    recommenda~onsare adequately addressed.
                                                                                             Management's psitibe responsiveness lo prior quesiiond
    aud~torswill need to exercise judgment in deurm~ningthe most ap-                         costs and control ncommendation.
    pfipriote and cost effective internal control in a givm environment
    or circumstance to provide reasonable assurance for compliance             I
                                                                                             Managcmenr's nspecr for and adherence 10 program com-
                                                                                             pliance requirements.                                                     !
    with Fcdcral               rquircmcnls.                                4                  Key m a g e n ' responsibilities cleruly defined.
h            e objectives of internal conml pertaining to the compliance re-                  Key managers' have adequate knowledge and experience to
    quirements for Federal prognms (lnkmrl control over Federal Pro-                          discharge their rtsponsibiliues.
    grams), as found in §-           105 of OMB Circular A-133. are as                        Slaff knowledgeable about compliance nquircments and be '
    follows.                                                                                  ing given nspons~bilityto communicate all Instances of
        ( 1 ) Transactions are properly recorded and accounted for to:                        noncompliance to management                                       I
        (i) Permit the preparation of reliable financial statements and                       Management's commitment to competence ensures that
                                                                                              staff reccivc d q u a t e mining to perform their duties.         I
     Federal reports;
        (ii) Maintain accountability over Issets;and                                          M m q e m ~ t 'suppon
                                                                                                                t        of adequate infonnat~onand                        1
        (iii) Demonatrue compliance with laws. nguluions. ad other
     compliance requirements;
                                                                                              ing system.
                                                                                                                                                                           I
         (2) Transactions arc u c c u t d in compliance with:                     Risk Assesrnvnl IS the ent~ty'cidentification and d y r i s of re\-
                                                                                   evant risks to achievement of i a objectives, forming a basis for de- I
                                                                                                                                                                           I
         (i) laws, regulations. and the provisions of conrnas w grant
     agreements that could have a direct and material effect on a Federal          t e r m i ~ n ghow the risks should be managed.                                I
     program: and                                                                              Progrim managen and staff understand and have identified I
         (ii) Any other laws and regulations that are identified in the com-                   key:ornpliancc objectives.
     pliance supplemcnls; and                                                                  Organizational structure provide 1den:ification of risks of
         (3) Funds. propcny. and other assets arc safeguarded against loss                     noncompliance:
     from unauthorized use or disposition.                                                         Key managers have been glven responsib~li~y      to identify
          The characteristics of internal control are presented in the context                     and comm"n~catechanges.
     of the companenu af internal control discussed in Intcnid Conrrol-                        s Employees who require close supervision (e.g. t n e x ~ r i -
      Integrated Frumewont (COSO Report). published by the Committee                               enced) arc identified
     of Sponsoring Organizations of the T m d w a y Commission. The                                Management has identified and assessed complex opera-
      COSO Rtport provides a framework for organhtions to design,                                  tions, programs. or projects.
      implement, and evaluate control that will facilitate compliance w ~ t h                   8 Management is awart of ccSults of monitoring, audits.             1
      the requrrcmmu of k d e r d laws, regulrtions. and program compli-                           and reviews and conorders reiated nsk of noncornpl~ansc. i
      ance rewiremenu. Statement on Auditing Standards No. 78 (SAS                              Rocess established to implement changes in pmqam objec- '
      78). ~ot&ldcrafronof lntcrnd Control rn h Financrd Stalemen1                              tives and procedures.
      Audit, ~ssuedby the Audltlng Standards Board of the Amencan




    T h o n p m Publishtng Group.    Inc.                                      J u 1999
                                                                                   ~
                                                           ___           _   -             __            _.    _                -
                                                                             Chapter 4
                                                                             Flcld Work Strndnrdm for
                                                                             F i c L I Aoditr




                                                           .
                                                           .   _ _ _ _ _ _ _ _ _ _ _ _ _-_ _                         _- _ -          -
                                                                             that would e n d l e an experienced a u d t o r to exrulld
                                                                             the same tmnsactions and records;8and
A mcordofthe rudiCors' work ahodd be
retained In the form of working p8pem.                                       c. evidence of s~rpervisoryreviews of the work
                                                                             performed.
4.36 me additional working paper standard for
6nanciaI statement audits k                                                  4.38 One fador underlying QAGM audits i s t h a ~
                                                                             federal, state, and local governments and other




i
W o W n g papem mhould contain suflkient                                     organizations cooperate in auditir~gprogrants of
Iafornutlon to e d l e m experienced auditor                                 common interest so that auciitors nlay use others'
hrvimg no prevloue connecdon with the audlt to                               work and avoid duplicate audit efforts. Arrangm~e
cucertrln lrom them the evidence that lrupports                              should be made s o that working papers wiU be 111
the auditors' s l r p r l n w t conclmions and                               avadable, upon q u e s t , to other auditors. To f a c ~
judgmemb.                                                                    reviews of audit quality m d reliance by other a~ttli
                                                                             on the auditors' work, contradual ~~~~~~~~~~9 I             r.



4.36 Audiis done in accodance with GAG- ere                                  GAGAS audits should p r o d e for access to work~rir
subject to review by other auditors and by oversight                         papem.
oficials more frequently than audits done in
accordance with AICPA standards. Thus,whereas MCPA                           _                                _    _             -

standards cite two main purposes of working                                  4.39 Certain A ~ C P Astandards adclres specific tyj
papem--provldlng the princrpal su~mrt      for the audit   finan'''   "Me'   finmddre,
                                                                                   -   ~
                                                                                              audu, G A C ; M incoNorab
report and aiding auditors in the canduct and              Audits            standards, as drrrcussed below:'
supervision of the auditworking papers sene an
additional purpose in audits performed in accordance
with GAGAS. Working papers allow for the review of
audit quality by pmprovidlng the reviewer written
documentation of the evidence supporting the
auditon'siWcant condusions and judgments.                                    b. rn no. 62, Special
                                                                                              ..-
                                                                                                   Reports,
                                                                                                    . - --
                                                                                                            for a u d ~ t ~ qn rgn 4 n <
                                                                             elements, accounts, or items of a financial state~~
4.37 Working papers should contain

n the objectives, scope, and methodology, including
any sampling criteria used;
b. documentation of the work performed to support
sigmfkant conclusions and judgments, including
descriptions of trarrsactions and records examined
                                                                        Appendix D

Memorandum

TO:             Luise Jordan. Inspector                               AmeriCorps National Service   C 0 R P 0R A T I

                                                                                                       FOR ShTIOu
THRL':          U'illiam Anderson. Acting
                                                                                                       OSERV
FROhl:          Peter Heinaru. Director.

DATE:           January 29. 2001

St--BJECT:      Comments on the OIG Draft 0 1 - 19: Pre-.dudit Survey of'rhe C ' d i f o r ~ 7 1 ~ 1
                ('ommission on Improving Life Through Service

U'e ha\.e re\-ie\c-edthe draft preaudit survey of the California Commission on Impro\.ing
Life Through Service and are pleased to note that the California Commission:

         4   conducts an open competitive process for its subgrant selections:

         4   has adequate controls. policies and procedures to administer the Corporation's
             grant funds: and

         +   has established controls to evaluate and monitor subgrantees.

The report contains ten findings and seven recommendations. This letter comments on
several of the key issues identified.

In the area of administer in^ Grant Funds, five findings were noted and four
recommendations were made. Concerning the finding that the Commission has not de\ eloped
a comprehensir~epolicies and procedures document that addresses its financial
responsibilities, the Commission states that it adequately maintains its financial management
processes through the State of California financial policies and procedures manual ~vhich
cover all federal grant programs. This manual includes information pertinent to Corporation
funded subgrantees. Thus, the Corporation disagrees with the recommendation to prepare a
comprehensive manual that is reflective of its financial responsibilities, because a
comprehensive manual currently exists. The Corporation will follow-up with California to
ascertain if any supplemental policies and procedures are needed.

The tinding. Document Retention, states that certain documentation required to be
maintained by the Commission could not be located. The California Canmission has                ..- --
provided 177 site visit reports out of 18 1 site visits conducted for fiscal years' 1997 and $698
to the State Auditor. This information was included in the State ~ u d i t o r ' ~ ~ papers
                                                                                      3rk t W - 7
were presented to the audit team. The number of missing reports is immaterial.
                                                                                                       W  a syew
                                                                                                       1201         ~ DC
                                                                                                              h ~ nYork
                                                                                                                      n .~venu*
                                                                                                                          2052
                                                                                                       Telephone 202-W
The Cc7r;loration disagrees ~ i ~ ther h svtent c~fthe recommended ~ c t ~ c ,n      , YPI r t - ,-
                                                                                ~ n:he
call for the use of a tile checkl~stthat idsntitiss the nature ~ n t)d pe ;ios~rncF[lY:J -c,:
the requlrements for record rersnrlon. 2nd 2 penod~crst ~ s i~~ ?cn d u c ! ~ J ,omctorc '"i"
                                                                                   l ~ 1 t t - 1;be c J. - '-
than the l n d l ~idual responsible tar : i i ~ n The Ccrporation ~r ~ i taIlc~\.-up
                                                                         l
Commiss~onto ensure that [he! ha\ e ;ln x i e q u ~ e>! >tern for dacarnent retention n
conformance m ~ t hstate requlrements

Regarding the recommendatlon on Timellnes~o f C~rhqrunreeFCR \ to document 3nii
implement procedures regarding follou-up on unt~msl>FSR subm~ss~ons              b! subgrmrces
The Cal~fomlaCommission states that ~t has pollcles and procedures In place :c\r : d l o ~ i - ~ p
on untimel! FSR subm~ss~ons     b) subgrantees and ~mplementsthem The Corpar;it,{ln                   i i 1 ; 1


work ~ k ~ the
            t h Califomla C o m m ~ s s ~ oton ensure that these p o l ~ c ~and
                                                                            ss proced~re~
to be utii~zed

The recommendatlon. from the tinding I re of jt'eh Bused Reportlnp C1,trrn. states that the
Callfom~aCommission contlnue to nork ~11ththe Corporation to resolte the p r n g r m ~ m ~ t , ~
Issues arlsing from the use of U'BRS Therefore. there IS no tbllo~c-upor correctiLe x t i g n
required because the report I S recommendmg someth~ngthat I S alread? happening

In the section. Evaluatin~and Monitorin9 Suberantees. three areas o t impro~smenr\\?re
identified. The first finding states that the Commission has not implemented an adequate
process for obtaining and reviewing. and when necessary. ensuring that prompt correcti~e
action is taken on OMB Circular A-133 audit reports for its subgrantees. The California
Commission asserts that it has a system in place to I ) ensure that A- 132 audits are conducred
on subgrantees that require it 2 ) that the audit was conducted 3 ) that the Commission ~ o i l t c t s
and reviews these audits. and 4) has procedures to follow-up with missins reports and rtports
that contain corrective action. The Corporation will follow-up with the Californ~a
Commission to assure that the system is in place.

The second and third findings and recommendations under Evaluation and Monitoring
addresses the .4dequacy of (he Sire Visit Form and Review of the .Member Timesheers. The
Corporation disagrees with these findings and recommendations. The Corporat~onis
concerned that the auditor's recommendation is attempting to direct the establishment of
arbitrap. exacting standards for the Commission's monitoring of its programs. The report
recommends that program managers use audit techniques including sampling and the
performance of specific programmatic and fiscal reviews for every award on an annual bass.
concepts not normally associated with or required by Federal management standards as
articulated in OMB Circulars A- 102. A- 1 10 and A-1 33.

However. the Corporation advocates a risk-based strategy for monitoring of programs that
considers experience. organizational history and past performance. including both
programmatic and financial elements. OMB A- 1 10. addressing Administrative Standards and
adopted by the Corporation in regulation. also addresses high-risk grantees and consideration
for additional monitoring by the Commission.
Thus. iis 110 nc7t 3gss i i ~ t hthe recommsnded s r m d ~ r dd f s ~ t s !sir rei I e i i j mi:~ t : : l ~ ; ~ . - : : L - .
I?t'suppiernsnt;tl ~uciitt e c h n ~ q u t s2s rscommendtd ;n [he repon The Corporzt:,lr ,.i                        , , ,


c o o r d ~ n a t e2nd ~ ~ o uri tkh the C ~ i 1 r j r n 1 C
                                                           3 .d r n r n ~ ~ j to
                                                                              i ~ Jssure
                                                                                  n      th3t [ht:r ~ Q P , I ~ ~ T : P.::A:;', :_,. : - .
for jubgrantctrs 15 r i s k - b a x d 2nd ~dtfquiiteduring :he their A d r n ~ n ~ j t r z i tSt3nJarCLl~.~              :;". .c,.i
                    KPiMG's Comments on Commission Response
                                                                                 Appendix E

The following paragraphs present KPMG's comments on the information presented in the
Commission's response to the findings and recommendations included in this report. We
continue to believe our findings are valid, based on the results of the limited procedures
performed. Further, our recommendations, if implemented, should result in improvements to
internal controls over Commission operations.

   I.      Administering Grant Funds

   Recommendation One: Documentation of Financial Management Processes at the
   Commission Level

   Part 6 of OMB Circular A -133's Compliance Supplement is intended to provide guidance as
   to "best practices". Documentation of policies and procedures continues to be one of the
   most important management tools, and is necessary to ensure continuity and consistency in
   the procedures that are followed by Commission personnel in performing their tasks. We
   agree that ultimately it is management's decision as to how comprehensive the
   documentation should be for the Commission. However, certain basic financial and grant
   management processes such as the procedures followed by the Commission for obtaining
   OMB Circular A -133 Audit Reports from subgrantees, and the Commission's follow up
   procedures for deficiencies identified should be considered for documentation in light of the
   volume of Corporation grants managed by the Commission. As noted in the report we have
   acknowledged that the Commission has various policies and procedures already in place,
   however, it is evident that these procedures do not encompass some of the Commission's
   basic financial and grant management tasks.

   Recommendation Two: Document Retention

   The pre audit survey involved a review of various areas which were tested through a sample.
   The results of these tests provided the basis for the preliminary findings that have been
   identified in the Report. The missing documents referred to in the report represent an
   example of missing documents. Additional examples of documents requested but not
   provided include the following:

              The Commission's completed evaluation and scoresheets pertaining to the
              following applicants:

                          I . California CASA Programs (Application Year 1994)

                         2. Building Community (Application Year 1994)

                         3. Safe Zones for Learning ArneriCorps (Application Year

                         4. Safe Zones for Learning Amencorps (Application Year
                     KPMG's Comments on Commission Response



                          5. Inglewood Student Academic Partnership Program (Application
                             Year 1998)

              Interview questions to assess past experience for the following applicants
              (Application Year 1997):

                          1. BAYAC AmeriCorps

                          2. AmeriCorps Watershed Project

                          3. Linking San Francisco

                          4. YMCAJCSU Pryde AmeriCorps Consortium

                          5. Central Valley Communities for Children

             Site visit reports for the following subgrantees:

                            1. Project AEGIS (Program Year 1999-2000)

                           2. Family Support Collaborative Placer (Program Year 1999-2000)

As noted in the report, the Commission is responsible for adhering to document retention
requirements. Without documentation, the Commission may be unable to demonstrate its
compliance with financial and programmatic requirements.

Recommendation Three:         Timeliness of Subgrantee FSRs

The pre audit survey involved a review of various areas which were tested through a sample.
The results of these tests provided the basis for the preliminary findings that have been identified
in the report. The information provided in the report represent examples of FSRs that were noted
as late submissions, for which follow-up procedures could not be verified. Our sample included
6 other subgrantee FSRs that were also submitted late.

The number of instances that were identified within our sample indicates the need for
improvement in the Commission's control procedures in this area. We have reworded our
finding and recommendation to clarify the nature and extent of exceptions found in our sample.

Recommendation Four:          Use of Web Based Reporting System

This finding has been deleted from the report based on the nature and basis of this finding as well
as the Commission's response.
                     KPMG's Comments on Commission Response



11.   Evaluating and Monitoring Subgrantees

Recommendation One:           Review of OMB Circular A-1 33 Audit Reports

The pre audit survey involved a review of various areas which were tested through a sample.
The results of these tests provided the basis for the preliminary findings that have been identified
in the report. Accordingly, any exceptions in the sample selected, such as that referred to of a
single audit report containing only one of the three reports that should have been received
support the fact that the Commission has not implemented an adequate process for consistently
obtaining and reviewing subgrantee's audit reports. Further, we do not believe the
Commission's staff participation in a discussion with the State Auditors fulfills the
Commission's responsibility for monitoring or follow up on corrective actions. Corrective
actions presented by subgrantees in response to an audit finding does not imply that such
corrective actions have been implemented. Additionally, auditors generally review the status of
corrective actions taken during the following audit cycle, i.e., after a year has passed. The
Commission's procedures for follow up actions should include a formal written request to the
subgrantee for a corrective action plan as soon as the Commission is aware of a problem area.
The corrective actions to be taken, including the time line for implementation, should be
monitored by the Commission and verified during subsequent site visits.

Recommendation Two and Three:             Adequacy of the Site Visit Form, Review of Member
Timesheets

Our recommendation was not intended to infer that program monitoring should be subject to
AICPA auditing standards. However, including requirements for documentation and retention of
documents in the Commission's site visit monitoring tool, although not specifically required by
law or regulation, enhances it's ability to consistently evaluate key compliance and
programmatic requirements, validate the results of its reviews, and ensure the completion of all
monitoring steps at each subgrantee visited. Additionally, without proper documentation, a
reviewer (e.g. Supervisor) of the Commission's site visit monitoring tool is not able to: (1) assess
if the sample selected was adequate; and (2) review the same documentation if a question arose
about the results of the test.
